Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





   FLORIDA MADE MEDICAID 

 ELECTRONIC HEALTH RECORD 

  PAYMENTS TO HOSPITALS IN 

ACCORDANCE WITH FEDERAL AND 

    STATE REQUIREMENTS 



  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.Affairs@oig.hhs. gov.




                                                     Lori S. Pilcher 

                                               Regional Inspector General 

                                                   for Audit Services 


                                                       August 2014
                                                      A-04-13-06164
                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission ofthe Office offuspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and fuspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office offuvestigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION 



    Florida made Medicaid electronic health record payments to Hospitals in accordance with
    Federal and State requirements.


WHY WE DID THIS REVIEW

To improve the quality and value of American health care, the Federal Government promotes
the use of certified electronic health record (EHR) technology by health care professionals
(professionals) and hospitals (collectively, "providers"). As an incentive for using EHRs, the
                                                                                      1
Federal Government is paying providers that attest to the "meaningful use" of EHRs. The
Congressional Budget Office estimates that, from 2011 through 2019, spending on the Medicare
and Medicaid EHR Incentive Programs will total $30 billion; the Medicaid EHR Incentive
Program will account for more than a third ofthat amount, or about $12.4 billion.

The Government Accountability Office has identified improper incentive payments as the
                                         2
primary risk to EHR incentive programs. These programs may be at greater risk of improper
payments than other programs because they are new and have complex requirements. Other U.S.
Department of Health and Human Services, Office of Inspector General reports describe the
obstacles that the Center for Medicare & Medicaid Services (CMS) and States face overseeing
the Medicare and Medicaid EHR incentive programs? The obstacles leave the programs
vulnerable to paying incentive payments to providers that do not fully meet requirements. The
Florida Agency for Health Care Administration (State agency) was one of the first State agencies
to make incentive payments, making approximately $178 million in Medicaid EHR incentive
program payments from January 1, 2011, through April30, 2012.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid EHR Incentive
Program payments in accordance with Federal and State requirements.




1
  To meaningfully use certified ERRs, providers must use numerous functions defmed in Federal regulations as
improving health care quality and efficiency, such as computerized provider order entry, electronic prescribing, and
the exchange ofkey clinical information.
2
 First Year ofCMS 's Incentive Programs Shows Opportunities to Improve Processes to VerifY Providers Met
Requirements (GA0-12-481), published April2012.
3
 Early Review ofStates ' Planned Medicaid Electronic Health Record Incentive Program Oversight (OEI-05-10­
00080), published July 2011 and Early Assessment Finds That CMS Faces Obstacles in Overseeing the Medicare
HER Incentive Program (OEI-05-11-00250), published November 2012.

Florida Medicaid Electronic Health Record Payments (A-014-13-06164)                                                    I
BACKGROUND

Health Information Technology for Economic and Clinical Health Act

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 (Recovery Act), P.L. No. 111-5. Title 13 of Division A and Title IV ofDivision B of the
Recovery Act are cited together as the Health Information Technology for Economic and
Clinical Health Act (HITECH). HITECH established EHR Incentive Programs for both
Medicare and Medicaid to promote the adoption of ERRs.

Under HITECH, State Medicaid programs have the option of receiving from the Federal
Government Federal financial participation (FFP) for expenditures for incentive payments to
certain Medicare and Medicaid providers to adopt, implement, upgrade, and meaningfully use
certified EHR technology. The Federal Government pays 100 percent of Medicaid incentive
payments (42 CFR § 495.320).

Medicaid Program: Administration and Federal Reimbursement

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Florida, the State agency administers the program.

States use the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64) to report actual Medicaid expenditures for each quarter, and CMS uses it to
reimburse States for the Federal share of Medicaid expenditures. The amounts reported on the
CMS-64 and its attachments must represent actual expenditures and be supported by
documentation. States claim EHR incentive payments on lines 24E and 24F on the CMS-64
report.

National Level Repository

The National Level Repository (NLR) is a CMS Web-based provider registration and
verification system that contains information on providers participating in the Medicare and
Medicaid EHR Incentive Programs. The NLR is the designated system of records that checks for
duplicate payments and maintains the incentive payment history files.




Florida Medicaid Electronic Health Record Payments (A-014-13-06164)                             2
Incentive Payment Eligibility Requirements

To receive an incentive payment, eligible professionals and hospitals attest that they meet
program requirements by self-reporting data using the NLR. 4 To be eligible for the Medicaid
EHR Incentive Program, hospitals and professionals must meet Medicaid patient volume
requirements (42 CFR § 495.304(c)). In general, patient volume is calculated by dividing the
provider's encounters with Medicaid patients by the provider's total number of service
encounters. 5 See Table 1 for program eligibility requirements for providers.

                   Table 1: Eligibility Requirements for Professionals and Hospitals

                        Eligibility Requirements                                 Professional         Hospital
     Provider is a permissible provider type that is licensed to                        X                  X
     practice in the State.
     Provider participates in the State Medicaid program.                               X                  X

     Provider is not excluded, sanctioned, or otherwise deemed                          X                  X
     ineligible to receive payments from the State/Federal
     Government.
     Professional is not hospital-based. 0                                              X
     Hospital has an average length of stay of 25 days or less.                                            X
     Provider has adopted, implemented, upgraded or                                     X                  X
     meaningfully used certified EHR technology. 7
     Provider meets Medicaid patient volume requirements. 15                            X                  X


Provider Payments

The amount of an incentive payment varies depending on the type of provider.


4
 Eligible professionals may be physici$inS, dentists, certified nurse-midwives, nurse practitioners, or physician
assistants practicing in a Federally Qualified Health Center or a Rural Health Clinic that is led by a physician
assistant (42 CFR § 495.304(b)). Eligible hospitals may be acute-care hospitals, critical access hospitals or cancer
hospitals (75 Fed. Reg. 44314, 44484 (July 28, 2010)).
5
 There are multiple defmitions of"encounter." Generally stated, a patient encounter is any one day on which
Medicaid paid for all or part of a service or Medicaid paid the co-pays, cost-sharing, or premiums for a service
(42 CFR §495.30(e)(l)). A hospital encounter is either the total services performed during an inpatient stay or
services performed in an emergency department on any one day for which Medicaid paid for all or part of the
services or paid the copay, cost-sharing, or premium for the services (42 CFR § 495.306(e)(2)).
6
 Professionals may not have performed 90 percent or more of their services in the prior year in a hospital inpatient
or emergency room setting (42 CFR § 495.304(c)).
7
    42 CFR §§ 495.314(a)(l)(i) or (ii).
8
 Professionals, with the exception of pediatricians, must have a Medicaid patient volume of at least 30 percent;
pediatricians must have a Medicaid patient volume of at least 20 percent (42 CFR §§ 495.304(c)(l) and (c)(2)).
Hospitals must have a Medicaid patient volume of at least 10 percent, except for children's hospitals, which do not
have a patient volume requirement (42 CFR §§ 495.304(e)(l) and (e)(2)).

Florida Medicaid Electronic Health Record Payments (A-014-13-06164)                                                    3
Eligible Hospital Payments

Hospital incentive payments are based on a one-time calculation of a total incentive payment,
                                                                                      9
which is distributed by States over a minimum of 3 years and a maximum of 6 years. The total
incentive payment calculation consists of two main components-the overall EHR amount and the
Medicaid share.

Generally stated, the overall EHR amount is an estimated dollar amount based on a total number
                                                                      10
of inpatient acute- care discharges over a theoretical 4year period. The overall EHR amount
consists of two components-an initial amount and a transition factor. Once the initial amount is
multiplied by the transition factors, all 4 years are totaled to determine the overall EHR amount.
Table 2 provides three examples of the overall EHR amount calculation.

                  Table 2: Overall Electronic Health Record Amount Calculation

                                  Hospitals With              Hospital With 1,150           Hospitals With More 

                                  1,149 or Fewer                Through 23,000                  Than 23,000 

                                Discharges During             Discharges During              Discharges During 

   Type of Hospital             the Payment Year               the Payment Year              the Payment Year 

Base Amount                          $2 million                    $2 million 
                  $2 million 

Plus Discharge-
Related Amount
(adjusted in years 2                                            $200 multiplied by 

through 4 that are                                             (n-1,149) where n is 

based on the average                                               the number of 
            $200 multiplied by 

annual growth rate)                      $0.00                       discharges 
              (23,000- 1,149) 

                                                               Between $2 million 

                                                                  and $6,370,200 

Equals Total                                                     depending on the 
            Limited by law to 

Initial Amount                        $2 million              number of discharges 
              $6,370,200 

                                     Year 1-1.00                    Year 1-1.00 
                Year 1-1.00 

                                     Year 2-0.75                    Year 2-0.75 
                Year 2- 0.75 

Multiplied by                        Year 3-0.50                    Year 3-0.50 
                Year 3-0.50 

Transition Factor                    Year4-0.25                     Year 4-0.25 
                Year4-0.25 

OverallEHR
Amount                           Sum of all 4 years             Sum of all 4 years 
           Sum of all 4 years 



9
  No single year may account for more than 50 percent of the total incentive payment, and no 2 years may account
for more than 90 percent of the total incentive payment (42 CFR §§ 495.310(£)(3) and (f)(4)). The State agency
elected for incentive payments to be made over a 4-year period with the first payment being 50 percent of the total ;
the second payment, 30 percent; and the two remaining payments, 10 percent.
10
   It is a theoretical 4-year period because the overall EHR amount is not determined on an annual basis; rather, it is
calculated once on the basis of the estimated amount a hospital should be paid over a 4-year period. An average
annual growth rate (calculated by averaging the annual percentage change in discharges over the most recent 3
years) is applied to the first payment year's number of discharges to calculate the estimated total discharges in years
2 through 4 (42 CFR§ 495.310(g)).

Florida Medicaid Electronic Health Record Payments (A-014-13-06164)                                                     4
The Medicaid share is calculated as follows:
                                                                                       11
       • 	 The numerator is the sum of the estimated Medicaid acute inpatient-bed-days, for
           current year and the estimated number of Medicaid managed care acute inpatient-bed­
           days for the current year (42 CFR § 495.31 O(g)(2)(i)).

       • 	 The denominator is the product of the estimated total number of inpatient acute -bed-days
           for the eligible hospital during the current year multiplied by the non-charity percentage.
           The non-charity percentage is the estimated total amount of the eligible hospital's
           charges during that period, not including any charges that are attributable to charity care,
           divided by the estimated total amount of the hospital's charges during that period
           (42 CFR § 495.31 O(g(2)(ii)).

The total incentive payment is the overall EHR amount multiplied by the Medicaid share. The
total incentive payment is then distributed over several years. (See footnote 9.) It is possible
that a hospital may not receive the entire total incentive payment. Each year, a hospital must re­
attest and meet that year's program requirements. The hospital may not qualify for the future
years' payments or could elect to end participation in the EHR incentive program. In addition,
the amount may change because of adjustments to supporting numbers used in the calculations.

Hospitals may receive incentive payments from both Medicare and Medicaid programs within
the same year; however, they may not receive a Medicaid incentive payment from more than one
State (42 CFR§§ 495.310(e) and G)).

Eligible Professional Payments

Professionals receive a fixed amount of$21,250 in the first year and $8,500 in subsequent years;
                                                      12
the total may not exceed $63,750 over a 6-year period. Incentive payments for pediatricians
who meet 20 percent Medicaid patient volume but fall short of30 percent are reduced to two­
thirds ofthe incentive payment. 13 Thus some pediatricians may receive only $14,167 in the first
                                                                                     14
year and $5,667 in subsequent years, for a maximum of $42,500 over a 6-year period.

Professionals may not receive incentive payments from both Medicare and Medicaid in the same
year and may not receive a payment from more than one State. After a professional qualifies for
an EHR incentive payment and before 2015, the professional may switch one time between
programs.




11
     A bed-day is 1 day that one Medicaid beneficiary spends in the hospital. 

12
     42 CFR §§ 495.310(a)(l)(in), (a)(2)(in), and (a)(3). 

13
     42 CFR §§ 495 .310(a)(4)(i), (a)4)(ii), and (b). 

14
     42 CFR § 495.310(a)(4)(iii). 


Florida Medicaid Electronic Health Record Payments (A-014-13-06164)                                   5
HOW WE CONDUCTED THIS REVIEW 


From January 1, 2011, through April30, 2012, the State agency paid $178,474,674 for Medicaid
EHR incentive payments. We (1) reconciled both professional and hospital incentive payments
reported on the State's CMS-64 to the NLR and (2) selected for further review all ofthe 42
hospitals that received an incentive payment totaling $1 million or more. The State agency paid
the 42 hospitals $72,441,032, which is 65 percent ofthe total payments of$112,231,325 made to
all the hospitals during the audit period. We did not audit the eligible professionals because of
prior reviews conducted by State contractors.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The appendix contains the details of our audit scope and methodology.

                                        RESULTS OF AUDIT

The State agency made the EHR incentive payments in accordance with Federal and State
requirements.




Florida Medicaid Electronic Health Record Payments (A-014-13-06164)                             6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


From January 1, 2011 , through April30, 2012, the State agency paid $178,474,674 for Medicaid
EHR incentive payments. We (1) reconciled both professional and hospital incentive payments
reported on the State's CMS-64 to the NLR and (2) selected 42 hospitals that received an
incentive payment totaling $1 million or more. The State agency paid the 42 hospitals
$72,441 ,032 , which is 65 percent of the total payments of$11 2,231 ,325 made to the hospitals for
the audit period.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective.

We performed our fieldwork at the State agency' s office in Tallahassee, Florida, and at hospitals
throughout Florida.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal and State laws, regulations, and guidance;

    • 	 held discussions with State agency officials to gain an understanding of State polices and
        controls as they relate to the Medicaid EHR Incentive Program;

    • 	 selected a nonstatistical sample of 42 hospitals that were paid an incentive payment of
        $1 million or more from January 1, 2011, through April30, 2012;

    • 	 reviewed the State's supporting documentation related to hospitals in our sample;

    • 	 reviewed and reconciled the appropriate lines from the CMS-64 to supporting 

        documentation and the NLR; 


    • 	 visited sample hospitals and verified the information submitted to the State agency;

    • 	 verified that hospitals met eligibility requirements;

    • 	 determined whether sampled hospital incentive-payment calculations were correct; and

    • 	 discussed the results of our review and provided our recalculations to State officials.




Florida Medicaid Electronic Health Record Payments (A -0 14-13-06164)                                7
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Florida Medicaid Electronic Health Record Payments (A-0 14-13-06164)                           8
